U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


PATENT AND TRADEMARK OFFICE

     PTO’s Year 2000 Renovations and Test
   Program Are Effective but Agency Should
       Freeze Changes and Verify Inventory

     Inspection Report No. OSE-11693-01 / September 1999




                             Office of Systems Evaluations
September 29, 1999



MEMORANDUM FOR:               Q. Todd Dickinson
                              Acting Assistant Secretary of Commerce
                               and Commissioner of Patents and Trademarks


FROM:                         Johnnie E. Frazier

SUBJECT:                      Final Inspection Report, PTO’s Year 2000 Renovations and Test
                              Program Are Effective but Agency Should Freeze Changes and
                              Verify Inventory (OSE-11693-01)


The Office of Inspector General conducted a review of Patent and Trademark Office efforts to
make its automated information systems year 2000 (Y2K) compliant. We reviewed PTO
renovation and replacement activities for selected critical systems and found that they have been
made Y2K compliant and adequately tested.

However, PTO plans to significantly modify two of its most critical and vulnerable systems and
upgrade the operating system of the mainframe computer on which these systems reside.
Modifications to the Trademark Reporting and Monitoring (TRAM) and Patent Application
Location and Monitoring (PALM) systems and an operating system upgrade will be completed
during September and October 1999, but PTO has no plans for comprehensive retesting to ensure
the systems and computer remain Y2K compliant.

We also found that PTO’s Y2K systems inventory may not be complete. Based on minimal
response to an earlier survey of systems users and the recent identification of an important system
that was not previously inventoried, there is some doubt that all PTO systems have been
inventoried and evaluated for Y2K compliance. We recommend that PTO re-survey users to
ensure that all critical systems are identified and evaluated for Y2K compliance. We also
recommend that by late November 1999, PTO complete all system modifications, fully retest
modified systems, and freeze system changes until at least a week after the new millennium.

PTO’s Chief Information Officer responded to our August 26, 1999 draft inspection report and
concurred with all recommendations except the recommendation to fully retest modified systems.
Beginning on page 8, we have included a synopsis of PTO’s general comments on OIG
observations and conclusions, and beginning on page 9, a synopsis of PTO’s response to each
recommendation followed by an OIG discussion. The response in its entirety is included as
Appendix A. We reaffirm our recommendation to fully retest modified systems.

We appreciate the cooperation of PTO staff during the review.
U.S. Department of Commerce                                                    Inspection Report OSE-11693-01
Office of Inspector General                                                                    September 1999

BACKGROUND

Patent and trademark processing was identified by the National Performance Review as being a
“high impact” federal program based on the public’s reliance on these functions. Many of the
computer systems PTO uses to process patent and trademark applications were originally
programmed using the last two digits of year dates (rather than all four digits). Two-digit year
dates can cause inaccurate computations associated with the year 2000 because the computers
cannot distinguish between the years 1900 and 2000.

Unless this problem is fixed, there is high risk that PTO’s business operations will be disrupted
because systems will not function properly. If systems are not Y2K compliant, then services
crucial to intellectual property protection could be jeopardized. PTO’s strategy for solving the
Y2K problem has been to replace most mission critical systems and major components of the
information technology infrastructure and to modify the remaining systems whose migrations to
new systems could not be accomplished by December 31, 1999.

PTO employs 73 systems to process patents and trademarks and to perform related functions such
as processing fees, classifying patent and trademark applications, corresponding with applicants,
and disseminating information to the public. Thirty-five of the systems were classified for Y2K
purposes by PTO as mission-critical (see Appendix B). PTO certified in June 1999 that all 35
systems are Y2K compliant after evaluating the systems for two-digit date sensitive fields,
renovating or replacing the systems, and testing the systems.

PTO subjected most systems to unit, integration, and formal qualification testing. 1 An exception to
this process was made for TRAM, one of PTO’s critical systems. A PTO contractor reviewed the
code to identify date fields prior to the renovation. TRAM code was then renovated, unit tested,
and integration tested by PTO personnel.

PURPOSE AND SCOPE OF INSPECTION

The purpose of our review is to reduce the risk of critical system failure and business interruption
due to the year 2000 century change by assessing actions by PTO and recommending practical risk
mitigation activities. We reviewed a sample of PTO mission-critical systems including PALM,
TRAM, Computer Search System (CSS), and Classified Search and Image Retrieval (CSIR). We
also reviewed PTO’s most critical infrastructure component, PTOnet, which connects more than




        1
           Formal qualification testing is acceptance testing of an information system that is performed
independent of the developing organization. It is performed after unit testing of individual system components and
integration testing of all system components working together are completed.

                                                        2
U.S. Department of Commerce                                              Inspection Report OSE-11693-01
Office of Inspector General                                                              September 1999

6,000 internal users to PTO systems (see Figure 1). These systems and PTOnet are relied on
heavily to carry out PTO’s business processes and are its highest priorities for Y2K readiness.

Figure 1. PTO Information Technology Architecture 2




We evaluated the extent of system searches to find Y2K-sensitive date fields, the renovation
methods employed, and the extent to which the systems were subjected to in-house and
independent testing. We are continuing to evaluate systems testing as well as business continuity
and contingency planning (BCCP). Our BCCP work includes initiation of planning, management


       2
           Based on PTO’s Strategic Information Technology Plan, FY1999-FY2004, December 1998.

                                                    3
U.S. Department of Commerce                                           Inspection Report OSE-11693-01
Office of Inspector General                                                           September 1999

involvement in support of Y2K preparedness, business impact analyses, detailed contingency and
disaster recovery planning, and business process testing. We will provide the results of our BCCP
evaluation in a separate report.

Our methodology includes evaluating documentation; interviewing staff within PTO’s Office of the
Chief Information Officer, Office of Patents, and Office of Trademarks; and interviewing PTO
contractors who performed software scanning for date fields and repaired and tested renovated
code. Our evaluation criteria were derived from General Accounting Office (GAO) and Office of
Management and Budget (OMB) guidelines written specifically for the Y2K computing crisis,
research institutions, and best business practices.

Our work was performed in accordance with the Inspector General Act of 1978, as amended, and
the Quality Standards for Inspections, March 1993, issued by the President’s Council on Integrity
and Efficiency.

OBSERVATIONS AND CONCLUSIONS

In general, PTO certified its critical systems as Y2K compliant after renovation or replacement
and adequate testing. However, PTO plans to make systems changes to TRAM, PALM, and the
UNISYS A-16 mainframe operating system without repeating a comprehensive test to verify that
the components and interfaces remain Y2K compliant. Modifying systems that are already Y2K
compliant can introduce new errors, and these systems are PTO’s most critical and least stable.
Also, there is uncertainty about the completeness of PTO’s inventory of end-user systems that may
need Y2K renovation or replacement. PTO should freeze system changes after needed
modifications are made and thoroughly retest the systems to ensure continued compliance. In
addition, business managers should resurvey end-user systems to ensure that they are evaluated for
Y2K readiness.

I. PTO Systems Renovations and Replacements Have Been Completed

PTO certified its last critical system as Y2K compliant in June 1999. Most systems were replaced
as part of PTO efforts to convert its infrastructure to a distributed client/server architecture in a
standards-based open systems environment. PTO’s two most critical systems, TRAM and PALM,
could not be replaced in time for the year 2000 century change. The contractors used automated
tools to locate two-digit date fields within these two systems. PALM software was then renovated
and tested by contractors. TRAM software was renovated and tested by PTO staff.

After certifying TRAM and PALM as Y2K compliant, PTO successfully completed a “Day-One”
test on May 15 and 16, 1999, to simulate systems operations in the next century. The two systems
with their UNISYS A-16 host mainframe computer were included in the Day-One test. The
systems were tested using production system workstations and network-connected personal
computer workstations. The test was performed against a duplicate of the TRAM and PALM


                                                 4
U.S. Department of Commerce                                                      Inspection Report OSE-11693-01
Office of Inspector General                                                                      September 1999

production data to preclude any corruption of actual systems data. Based on the test results, PTO
believes that TRAM and PALM will perform properly in the year 2000.

A more comprehensive Day-One test was conducted on July 24 and 25, 1999, to test more systems
critical to PTO business processes. For this second and more comprehensive Day-One test, PTO
tested 17 of the 35 critical systems (see Appendix B) with PTOnet, both individually and in
combinations. The second test included internal interfaces between critical PTO systems
including TRAM and PALM. These 17 systems were tested with simulated processing dates to
assess their capability to work and interact in the year 2000. PTO discovered no Y2K problems
with any of the systems or PTOnet during testing.

II. Critical Systems Should Be Frozen and Retested

PTO operates in a dynamic software development environment. Changes to patent or trademark
business processes require software modifications to PTO systems. Significant TRAM software
modifications are scheduled to occur by October 30, 1999, to comply with the provisions of the
1995 Trademark Law Treaty. These changes will be made to standardize international forms used
to apply for trademark registration and simplify the establishment of electronic data interchange.
The changes will add approximately 40 new transactions to the TRAM system application
software and two new reports.

PTO relies heavily on the date-intensive legacy3 PALM system to provide necessary workflow
tracking, patent application status reporting, and examiner production and docket information on a
daily basis. PALM will need system repairs before the end of the year to correct errors and may
need enhancements to implement potential near-term changes in patent law, such as Pre-Grant
Publication (publication of patent applications 18 months after they have been filed).

PALM and TRAM run under the UNISYS Master Control Program (MCP) operating system on a
UNISYS A-16 mainframe computer. PTO is using MCP version 44.2, which is certified Y2K
ready by the vendor. Although PTO plans to continue using MCP version 44.2 until January 2000,
it recognizes that the system should be upgraded to the most current maintenance level for version
44.2, and has scheduled the change for October 1999.




         3
           PALM (and TRAM) are legacy systems. Legacy is the term applied to software applications and data
that have been inherited from languages, platforms, and techniques earlier than current technology. Typically, it is
a challenge to keep legacy systems running while migrating to new programming languages and operating systems
that follow open or standard programming interfaces. Migrating to current technology will make it easier in the
future to update software applications without having to rewrite them entirely and make them more compatible
with other operating systems.

                                                         5
U.S. Department of Commerce                                                  Inspection Report OSE-11693-01
Office of Inspector General                                                                  September 1999

PTO is not planning end-to-end retesting of modified systems. PTO does not plan to repeat end-
to-end tests 4 to ensure Y2K compliance after October 1999. Unit testing will be performed to
determine subroutine and program compliance of the modified systems, but PTO considers the
changes to be routine and does not plan to conduct critical integration and end-to-end testing on the
modified software that would also test system interfaces.

PTO believes the unit testing will be sufficient to identify any Y2K anomalies introduced into its
systems after the software modifications and operating system upgrade. However, we are
concerned that the scope of unit testing is not broad enough to ensure that the modifications have
not introduced changes that significantly increase the risk of Y2K failure after Day-One testing.
Unit testing verifies that the smallest defined modules of software, such as programs or
procedures, work as intended. Unit testing does not verify that combined units of software, such as
applications, work together as intended. Nor does it verify that an application will function as
intended as a system or with other systems with which it interfaces.

PTO’s most vulnerable systems are at risk. Changes can introduce Y2K errors into systems that
have been certified as Y2K compliant, especially in legacy systems such as PALM and TRAM.
PALM and TRAM are not as stable as other PTO systems. These systems are very dependent on
institutional knowledge to keep running properly. They use COBOL source programming code and
include about 800 programs with a combined total of one million lines of programming code.
However, it is difficult to find senior level COBOL programmers needed to maintain PALM and
TRAM, and systems personnel to maintain the UNISYS mainframe computer that they reside on.

The systems were developed without structured coding techniques, and the software is complex
and difficult to maintain. The systems are constantly undergoing change, and program code has
been modified extensively over the years to correct software errors and to implement new
requirements, increasing software maintenance difficulties. Also, changes to PALM and TRAM
are placed immediately into production due to user demand, without the same level of
documentation, testing, and control as other PTO systems.

PALM and TRAM require interfaces with other critical systems to accomplish patent and
trademark processing. Interfaces include systems that support trademark data entry, application
assignment, file searching, and order entry. Patent interfaces include patent image capture, office
action correspondence, application assignment, and revenue accounting. According to PTO, a
PALM or TRAM failure would have a major adverse business impact. PTO’s Strategic
Information Technology Plan indicates that this impact would be on its ability to process patents
and meet current performance goals. Failure of the A-16 mainframe would simultaneously result




        4
          End-to-end tests are conducted to verify that interrelated systems supporting an organization’s core
business processes interoperate as intended. PTO’s second Day-One test approximated an end-to-end test for 17
systems and PTOnet.

                                                       6
U.S. Department of Commerce                                           Inspection Report OSE-11693-01
Office of Inspector General                                                           September 1999

in degradation of PALM and TRAM performance, partial or total system failure, erroneous results,
or possibly the inability to access data.

Guidance supports maintaining Y2K system compliance. The risk of modifying Y2K compliant
systems and the need to thoroughly retest the modified systems are widely supported. OMB issued
Memorandum M-99-17 dated May 14, 1999, Minimizing Regulatory and Information
Technology Requirements That Could Affect Progress Fixing the Year 2000 Problem. The
memorandum directs agencies not to modify systems unless absolutely necessary and to establish
processes to ensure that the effect on Y2K readiness is considered prior to establishing new
requirements or changes to automated systems. We recognize that changes are necessary to PTO
systems due to the trademark legislation, the occurrence of errors, and vendor upgrades.
However, comprehensive testing can ensure that modified compliant systems remain compliant.

Y2K information technology guidance from the General Services Administration (GSA), posted on
the Department’s Chief Information Officer year 2000 home page, recognizes that agencies are at
higher than normal risk with legacy systems such as PALM and TRAM and that limited testing
(such as unit testing) may not exercise the particular conditions that would expose a Y2K flaw.
The guidance suggests that agencies be aggressive in performing more extensive advanced date
testing across applications and organizational boundaries. While the boundaries of end-to-end
testing are not fixed or predetermined, GAO’s Year 2000 Computing Crisis: A Testing Guide,
November 1998, supports the GSA guidance by encouraging agencies to dramatically increase the
scope and complexity of testing when systems are modified to coincide with the difficulty of
isolating, identifying, and correcting computing problems.

The business impact of Y2K induced system failures should drive organizational decisions about
the nature and scope of end-to-end testing. Business impact is a function of both business
priorities and the level of business risk that an organization is willing to assume by forgoing, or
limiting, such testing. Considering that TRAM and PALM are PTO’s most critical and highest
priority systems because of their high impact on business processes, it is reasonable that the
business process risk for these systems be reduced by repeating the end-to-end testing.

All hardware and software modifications, including those that materially change the performance
of PALM, TRAM, and the UNISYS A-16 computer, including system upgrades, should be
completely retested. Testing, at a minimum, should address all system components, (i.e.,
hardware, software, and interfaces) that are critical to the demonstration of Y2K compliance.
Comprehensive testing is necessary not only because changes to system components may have
unanticipated effects on the rest of the system, but also because of the unanticipated effect of
changes in one system upon other systems. Repeating an end-to-end test, such as the July 24 and
25 Day-One test in late November 1999, would provide several weeks to correct any new Y2K
errors found. The corrections could then be retested during the remainder of the year.




                                                 7
U.S. Department of Commerce                                         Inspection Report OSE-11693-01
Office of Inspector General                                                         September 1999

III. Systems Inventory Needs to be Verified

PTO’s inventory of systems that could have Y2K risk may not be complete. PTO’s configuration
management program provides a means for tracking development and deployment of software
systems. In an attempt to ensure that all applicable systems were inventoried for configuration
management, PTO conducted a survey among users to identify systems not included in the
inventory. There is some uncertainty about whether some smaller systems that were developed by
users were included in the inventory because few responses were received and a significant
system, Trademark Forms Paragraphs, was not identified by the survey. This system was
discovered only recently and included in the second Day-One test because of its significance to
trademark business processing.

PTO’s business process managers should resurvey their areas of responsibility to ensure that all
systems are identified. The sooner a system is identified, the more time will be available for
completing Y2K repair or replacement and testing before January 2000.

PTO Comments on OIG Observations and Conclusions in Draft Report

We reported that PALM may need enhancements to implement potential near-term changes in
patent law, such as Pre-Grant Publication. PTO responded that proposed legislation (H.R. 1907)
that would require changes to PALM has not been enacted and these enhancements will not be
required before January 1, 2000.

PTO also responded that it is not aware of errors in the PALM code that must be corrected, but
acknowledged that PALM software errors occur during the normal course of business and are
routinely fixed. The agency’s December 1998 Strategic Information Technology Plan discusses
making limited PALM enhancements to correct errors. A PALM formal qualification test report
dated May 21, 1999 (after PALM was certified as Y2K compliant) identified over 40 new
software errors that were discovered during Y2K testing.

We stated in our draft report that the PALM database will be significantly modified in September
1999 in preparation for PALM migration to an open systems architecture in late 2000. PTO
responded that it is not planning to extensively modify the PALM database in September 1999.
We deleted this statement in the final report.

Our report states that changes to PALM and TRAM are placed immediately into production due to
user demand, without the same level of documentation, testing, and control as other PTO systems.
PTO commented that it will institute for TRAM the same independent quality control review it
currently performs for PALM changes before modified software is placed into production. We
believe this additional procedure will help mitigate the risk that software changes will cause
TRAM to be noncompliant.



                                                8
U.S. Department of Commerce                                         Inspection Report OSE-11693-01
Office of Inspector General                                                         September 1999

RECOMMENDATIONS

To reduce the risk of system failures at the turn of the century, we recommend that the Acting
Assistant Secretary of Commerce and Commissioner of Patents and Trademarks direct PTO staff
to take the following actions:

1.     Develop a policy to freeze software changes to critical systems and retest the systems that
       are changed.

       a. Freeze all critical systems as of November 30, 1999.

              Synopsis of PTO’s Response

              PTO concurs with this recommendation and will freeze all but emergency changes
              after November 30, 1999.

              OIG Discussion

              PTO’s action is responsive to the recommendation.

       b. After November 30, conduct an end-to-end test of PALM, TRAM, the UNISYS A-16
          mainframe computer, and critical interfaces.

              Synopsis of PTO’s Response

              PTO does not agree with this recommendation. PTO’s position is that PALM and
              TRAM have already been successfully tested in May and July 1999 and there are
              no significant changes planned for PALM. According to PTO, there will be
              changes incorporated in TRAM to implement the provisions of the Trademark Law
              Treaty. These changes will require PTO to add new data elements, change existing
              edits, add new edits, change print formats, and add new reports. There are no new
              date fields. PTO will add additional independent quality assurance validation to
              verify that the Trademark Law Treaty changes to TRAM will not introduce Year
              2000 problems.

              OIG Discussion

              We agree that versions of PALM and TRAM have already been successfully tested
              during the July 24 and 25 Day-One test. We also agree with PTO plans not to
              change PALM (and other software) except in emergency situations. However,
              errors are discovered in PALM software almost daily. The process of correcting
              these errors changes the system. Each change to PALM will create a new, untested
              version of the system that may not be Y2K compliant.

                                                9
U.S. Department of Commerce                                         Inspection Report OSE-11693-01
Office of Inspector General                                                         September 1999

              In addition, PTO has not addressed the additional risk of introducing a maintenance
              upgrade to the UNISYS A-16 mainframe computer operating system. This upgrade,
              coupled with repairs to unplanned errors in PALM, and the TRAM enhancements to
              comply with the Trademark Law Treaty, introduce another level of risk that Y2K
              compliance will be jeopardized.

              Freezing the systems on November 30 without testing to ensure compliance does
              not provide assurance that the systems will operate correctly in the next century.
              PTO’s Year 2000 Program Manager recognized the effects of changing Y2K
              compliant systems in planning the agency’s July 1999 Day-One test by stating,
              “results from the July 24 test will apply only to the specific software versions,
              specific system configurations, and specific systems included in the test.” He also
              stated, “it is well recognized that there will be changes to these versions and
              systems before January 1, 2000. . . .”5

              We reaffirm our position and recommendation.

       c. Keep all critical software and hardware configurations frozen until at least the second
          week in January 2000 to ensure that there are no Y2K operating difficulties.

              Synopsis of PTO’s Response

              PTO concurs with this recommendation and will freeze all but emergency changes
              until January 15, 2000.

              OIG Discussion

              PTO’s action is responsive to the recommendation.




       5
        Memorandum from Galaxy Scientific Corporation, Minutes of the Meeting for Day One
Testing, June 29, 1999.

                                               10
U.S. Department of Commerce                                        Inspection Report OSE-11693-01
Office of Inspector General                                                        September 1999

2.     Resurvey operational areas to identify end-user developed applications that are used in
       performing core business processes.

              Synopsis of PTO’s Response

              PTO concurs with this recommendation and re-surveyed its users on September 7,
              1999.

              OIG Discussion

              PTO’s action is responsive to the recommendation.

PTO’s full response is included as Appendix A.




                                                 11
U.S. Department of Commerce                                                                                 Inspection Report OSE-11693-01
Office of Inspector General                                                                                                 September 1999

                                                Appendix B
                                    PTO’s Year 2000 Critical Systems List

1           Patent Application Location & Monitoring System                                                 PALM2K*
2           Trademark Reporting and Monitoring System                                                       TRAM2K*
3           Trademark Search System                                                                         X-Search 1.1
4           Patent Image and Capture System                                                                 PICS
5           Office Action Creation Subsystem                                                                OACS
6           Patent and Trademark Copy Sales                                                                 PTCS
7           Global Patent Image Client                                                                      GPIC
8           PatentIn                                                                                        ------
9           Tradeups                                                                                        ------
10          Revenue Accounting Management System                                                            RAM
11          Computer Search and Image Retrieval                                                             CSIR Migration*
12          Computer Search System (Including EAST and WEST)                                                CSS *
13          Automated Biotechnology Sequence Search System                                                  ABSS
14          Bar Code Reader (for TRAM)                                                                      BCR
15          Classification Data System                                                                      CDS 1.0
16          Procurement Desktop                                                                             PD
17          Appeals Case Tracking System II                                                                 ACTS II
18          Trademarks Trial and Appeals Board Information System                                           TTABIS
19          Certification Data Automated System                                                             ------
20          Electronic Order System                                                                         EOS
21          Electronic Publishing Information Center                                                        EPIC
22          Patent and Trademark Assignment System                                                          PTAS
23          Order Entry Management System                                                                   OEMS
24         Services, Technicians, and Asset Tracking System                                                 STATS
25         Fastener Quality Act                                                                             FQA
26          PALM Migration Infrastructure                                                                   -------
27          Trademark Data Dissemination System                                                             TDSS
28          Automated Fee Collection System                                                                 AFCS
29          Enterprise Call Center                                                                          ECC
30          Patent Data Dissemination System                                                                PDDS
31          Operations and Budget                                                                           OpBudget
32          Copending Applications                                                                          ---------
33          Foreign Patent Access System II                                                                 FPAS2
34          Executive Document Management System                                                            EDMS
35          Resume Information System                                                                       RIS


Asterisk – PTO critical systems included in our review. Our review also included PTOnet, PTO’s highest priority infrastructure component for Y2K readiness.
Shaded – PTO critical systems included in Day-One test. The test also included Trademark Forms Paragraphs, Program Office Desktop, and Trademarks Image
            Capture and Retrieval System, although these systems are not included in this list.
U.S. Department of Commerce                                        Inspection Report OSE-11693-01
Office of Inspector General                                                        September 1999

                                     Appendix C
                              Acronyms Used in This Report

              ACTS             Appeals Case Tracking System

              BCCP             Business Continuity and Contingency Planning

              CDAS             Certification Data Automated System (replaced by OEMS)

              CDS              Classification Data System

              EAST             Examiner Automated Search Tool

              EMC              EMC Symmetrix storage devices sold by EMC Corporation

              EPO              European Patent Office

              FPAS             Foreign Patent Access System

              GAO              General Accounting Office

              GSA              General Services Administration

              JPO              Japanese Patent Office

              MCP              Master Control Program

              OA               Office Actions

              OEMS             Order Entry Management System

              OMB              Office of Management and Budget

              PALM             Patent Application Location and Monitoring

              PICS             Patent Image Capture System

              PTAS             Patent and Trademark Assignment System

              PTCS             Patent and Trademark Copy Sales

              PTDL             Patent and Trademark Depository Library

              PTO              Patent and Trademark Office
U.S. Department of Commerce                                       Inspection Report OSE-11693-01
Office of Inspector General                                                       September 1999


              RAM             Revenue Accounting and Management

              TRAM            Trademark Reporting and Monitoring System

              TTABIS          Trademark Trial and Appeals Board Information System

              WEST            Web Examiner Search Tool

              Y2K             Year 2000
